<html>
<title> - [H.A.S.C. No. 116-77] HEARING ON NATIONAL DEFENSE AUTHORIZATION ACT FOR FISCAL YEAR 2021 AND OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS BEFORE THE COMMITTEE ON ARMED SERVICES HOUSE OF REPRESENTATIVES ONE HUNDRED SIXTEENTH CONGRESS SECOND SESSION</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                                     
 
                         [H.A.S.C. No. 116-77]

                                HEARING

                                   ON

                   NATIONAL DEFENSE AUTHORIZATION ACT

                          FOR FISCAL YEAR 2021

                                  AND

              OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             SECOND SESSION

                               __________

          SUBCOMMITTEE ON TACTICAL AIR AND LAND FORCES HEARING

                                   ON

                     DEPARTMENT OF DEFENSE TACTICAL

                    AND ROTARY AIRCRAFT ACQUISITION

                     AND MODERNIZATION PROGRAMS IN

                    THE FISCAL YEAR 2021 PRESIDENT'S

                             BUDGET REQUEST

                               __________

                              HEARING HELD
                             MARCH 10, 2020

                                     
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 





                           ______

             U.S. GOVERNMENT PUBLISHING OFFICE 
41-501                 WASHINGTON : 2021 
                                      
  


              SUBCOMMITTEE ON TACTICAL AIR AND LAND FORCES

                 DONALD NORCROSS, New Jersey, Chairman

JAMES R. LANGEVIN, Rhode Island      VICKY HARTZLER, Missouri
JOE COURTNEY, Connecticut            PAUL COOK, California
RUBEN GALLEGO, Arizona               MATT GAETZ, Florida
SALUD O. CARBAJAL, California        DON BACON, Nebraska
ANTHONY G. BROWN, Maryland           JIM BANKS, Indiana
FILEMON VELA, Texas                  PAUL MITCHELL, Michigan
XOCHITL TORRES SMALL, New Mexico,    MICHAEL R. TURNER, Ohio
    Vice Chair                       DOUG LAMBORN, Colorado
MIKIE SHERRILL, New Jersey           ROBERT J. WITTMAN, Virginia
JARED F. GOLDEN, Maine
ANTHONY BRINDISI, New York
               Carla Zeppieri, Professional Staff Member
               Jesse Tolleson, Professional Staff Member
                         Caroline Kehrli, Clerk
                         
                            C O N T E N T S

                              ----------                              
                                                                   Page

              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Hartzler, Hon. Vicky, a Representative from Missouri, Ranking 
  Member, Subcommittee on Tactical Air and Land Forces...........     2
Norcross, Hon. Donald, a Representative from New Jersey, 
  Chairman, Subcommittee on Tactical Air and Land Forces.........     1

                               WITNESSES

Geurts, Hon. James F., Assistant Secretary of the Navy for 
  Research, Development, and Acquisition, Department of the Navy; 
  LtGen Steven Rudder, USMC, Deputy Commandant for Aviation, 
  Headquarters U.S. Marine Corps; and RADM Gregory Harris, USN, 
  Director, Air Warfare, Office of the Chief of Naval Operations.     5
Jette, Hon. Bruce D., Assistant Secretary of the Army for 
  Acquisition, Logistics and Technology, Department of the Army; 
  and BG Walter T. Rugen, USA, Director, Future Vertical Lift 
  Cross-Functional Team, Army Futures Command....................     4
Roper, Hon. William B., Jr., Assistant Secretary of the Air Force 
  for Acquisition, Technology and Logistics, Department of the 
  Air Force; Gen James M. Holmes, USAF, Commander, Air Combat 
  Command, Headquarters U.S. Air Force; and Lt Gen David S. 
  Nahom, USAF, Director of Programs, Office of the Deputy Chief 
  of Staff for Plans and Requirements, Headquarters U.S. Air 
  Force..........................................................     6

                                APPENDIX

Prepared Statements:

    Geurts, Hon. James F., joint with LtGen Steven Rudder and 
      RADM Gregory Harris........................................    51
    Jette, Hon. Bruce D., joint with BG Walter T. Rugen..........    41
    Norcross, Hon. Donald........................................    37
    Roper, Hon. William B., Jr., joint with Gen James M. Holmes 
      and Lt Gen David S. Nahom..................................    79

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    Mr. Bacon....................................................   111
    
               DEPARTMENT OF DEFENSE TACTICAL AND ROTARY

                 AIRCRAFT ACQUISITION AND MODERNIZATION

                    PROGRAMS IN THE FISCAL YEAR 2021

                       PRESIDENT'S BUDGET REQUEST

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
              Subcommittee on Tactical Air and Land Forces,
                           Washington, DC, Tuesday, March 10, 2020.
    The subcommittee met, pursuant to call, at 2:01 p.m., in 
room 2118, Rayburn House Office Building, Hon. Donald Norcross 
(chairman of the subcommittee) presiding.

  OPENING STATEMENT OF HON. DONALD NORCROSS, A REPRESENTATIVE 
  FROM NEW JERSEY, CHAIRMAN, SUBCOMMITTEE ON TACTICAL AIR AND 
                          LAND FORCES

    Mr. Norcross. Calling the hearing to order. And just 
discussing the awkwardness whether we shake hands, fist bump, 
but obviously it is on the minds of many, and certainly for you 
and the men and women you command, it is obviously a very big 
issue. Together, we will get through these as we have many 
others.
    Today, the subcommittee will review the Army, Navy, Air 
Force, and Marine Corps tactical and rotary-wing aviation 
programs in fiscal year 2021 budget request. We have an 
extensive portfolio of aviation programs to cover today. As a 
reminder, that the subcommittee is holding a separate hearing 
for the F-35 Joint Strike Fighter program. Reminder, so the F-
35, if you have to, we can do it here today, but we are having 
a separate hearing certainly which is going to demand a lot of 
our time.
    I would like to welcome our distinguished panel of 
witnesses, all eight of you: Dr. Bruce Jette, Assistant 
Secretary of the Army for Acquisition, Logistics and 
Technology; Brigadier General Walter Rugen, Director of Future 
Vertical Lift Cross-Functional Team; Mr. James Geurts, 
Assistant Secretary of the Navy for Research, Development and 
Acquisition. Is this seven out of eight times? Wonderful. Good 
to see you again. Lieutenant General Steven Rudder, Deputy 
Commandant of the Marine Corps for Aviation; Rear Admiral 
Gregory Harris, Director of Air Warfare, Chief of Naval 
Operations; Dr. Will Roper, Assistant Secretary of the Air 
Force for Acquisition, Technology and Logistics; General Mike 
Holmes, Commander, Air Combat Command for the Air Force; and 
Lieutenant General David Nahom, Deputy Chief of Staff for Plans 
and Programs at Headquarters Air Force at the Pentagon.
    Thank you all for your service and especially being here 
today.
    I will be submitting my full statement for the record, but 
want to take a few minutes, just some areas that we are going 
to have particular focus on today.
    Fiscal year 2021 budget request underlines tough choices 
ahead of us and highlights even within the contexts of the 
largest defense budget in the history resources that need to be 
allocated wisely. The request before us trades current aviation 
capability and capacity for future capability, calculating the 
need to lessen our high-end next-gen [generation] systems that 
will come at the expense of existing aircraft, certainly flying 
those current steady state and lesser contingency missions.
    The Navy's budget proposal removes 36 Super Hornet strike 
fighter aircraft planned after the 2021 budget and begins to 
shut down the F/A-18 production line beginning in 2023, 
increasing the Navy's strike fighter shortfall next year. 
Further, we need to understand what gives Navy leadership and 
acquisition officials confidence in terminating Super Hornet's 
production 10 years before the next-gen F/A-XX strike fighter, 
and currently exists in briefing slides, is as prudent.
    Turning to the Army, Future Vertical Lift initiatives will 
approach $1 billion in year 2021, with most of the funding 
accelerating development of the two new aircrafts. Army 
witnesses should be prepared to explain what measures they are 
taking to manage cost and risk as aircraft developed in 
parallel.
    With respect to ongoing Army programs, in fiscal year 2020, 
the NDAA [National Defense Authorization Act] and the 
appropriations both included $28.0 million in advance 
procurement for the Chinook Block II long-lead items. Now we 
have learned that despite congressional direction, the Army has 
put these funds on hold pending a decision from Army 
leadership.
    I am interested to hear details on the Army's strategy, how 
to preserve the heavy-lift industrial base. Management of the 
CH-53K, the heavy lift, certainly is one of great interest. And 
we are glad to see some of the openness and the feedback that 
we are getting, so we will get into that. And as the 
subcommittee continues to work on the 2021 NDAA, we will take a 
close look at these issues to make sure taxpayer dollars are 
wisely spent.
    Now I want to turn it over to my friend and ranking member 
of the TAL [Tactical Air and Land Forces] Committee, Ms. 
Hartzler, for her opening remarks.
    [The prepared statement of Mr. Norcross can be found in the 
Appendix on page 37.]

    STATEMENT OF HON. VICKY HARTZLER, A REPRESENTATIVE FROM 
MISSOURI, RANKING MEMBER, SUBCOMMITTEE ON TACTICAL AIR AND LAND 
                             FORCES

    Mrs. Hartzler. Thank you, Mr. Chairman.
    I have a lot to cover in a relatively short amount of time, 
so I will try to keep my comments brief. But first of all, 
thank you. Thank you all for your service to our Nation. We 
really appreciate your leadership and being here to provide 
testimony on the budget request for tactical and rotary-wing 
aircraft modernization programs.
    With flat budgets likely to be the norm, I appreciate all 
of your efforts in conducting exhaustive program reviews to 
better align your military service with the National Defense 
Strategy and the great power competition. I look forward to 
working together to determine what is the right balance to fund 
both current tactical readiness and needed modernization 
required for future readiness. It is within this context that I 
will highlight a few issues to discuss during this hearing.
    Regarding Navy strike fighter management, the chairman 
alluded to this, it is something I am interested in as well. 
This budget request, as he said, as you know, removed 36 new 
production
F/A-18 Super Hornets in the outyears that were originally 
planned for production in last year's budget. Given the Navy's 
current shortfall of 49 aircraft, I am concerned that this 
decision is creating too much operational risk in the near 
term.
    Regarding the F-15EX program and Air Force fighter force 
structure. Last year, during a similar hearing, we heard from 
you, Dr. Roper and General Holmes, that two-thirds of the F-15C 
fleet were past their service lives and these planes needed to 
be replaced now, which is why the Air Force made the F-15EX a 
top priority. I shared those concerns and agreed with you. And 
I am concerned that this budget request appears to have removed 
six F-15EX aircraft from what was originally projected in the 
fiscal year 2020 budget for fiscal year 2021.
    I understand these planes were removed due to higher Air 
Force priorities. I would like to know what these higher 
priorities are, since we obviously have a major readiness 
challenge with our F-15C fleet. I would appreciate the 
witnesses to update us on the current status of the F-15EX 
program.
    Regarding Army rotorcraft modernization, both the Future 
Armed Reconnaissance Aircraft and the Future Long-Range Assault 
Aircraft appear to be making considerable progress and 
significant down-selections scheduled for this month. That is 
good news. And I am encouraged by their success to date. I 
would appreciate an update on both of these programs from our 
witnesses today.
    I do however have some concerns regarding the reduced 
request for UH-60 Mike Black Hawks, and specifically what 
impacts this could have on accelerating the fielding of these 
helicopters for the Army National Guard.
    In closing, during our hearing last week on ground system 
modernization programs, General Murray stated that, quote, no 
service is able to go it alone. And as history has shown, joint 
teams win, and modernization is no exception. I would say 
winning matters, but winning together matters most, end quote. 
I couldn't agree more. So I would appreciate it if the 
witnesses could describe how they are coordinating with one 
another, and look forward to working with all of you and my 
colleagues in a collaborative manner as we review the fiscal 
year 2021 budget request.
    So thank you, Chairman, for organizing this important 
hearing. I yield back.
    Mr. Norcross. Thank you.
    And I would ask that each of you keep your opening remarks 
to 5 minutes per service. We have a full discussion and we have 
many of you.
    So, with that, Dr. Jette, great to have you back. Look 
forward to your statement.

 STATEMENT OF HON. BRUCE D. JETTE, ASSISTANT SECRETARY OF THE 
 ARMY FOR ACQUISITION, LOGISTICS AND TECHNOLOGY, DEPARTMENT OF 
    THE ARMY; AND BG WALTER T. RUGEN, USA, DIRECTOR, FUTURE 
   VERTICAL LIFT CROSS-FUNCTIONAL TEAM, ARMY FUTURES COMMAND

    Secretary Jette. Chairman Norcross, Ranking Member 
Hartzler, and distinguished members of the Subcommittee on 
Tactical Air and Land Forces, thank you for the invitation to 
discuss the Army's tactical rotary aircraft acquisition and 
modernization programs for fiscal year 2021, and for this 
opportunity to appear with our service counterparts.
    With me today is Brigadier General Wally Rugen, Director of 
the Future Vertical Lift Cross-Functional Team. I appreciate, 
Mr. Chairman, your making our written statement a part of the 
record for today's hearing.
    Aviation is one of Army's largest portfolio in terms of 
budget and an important element of the joint and organizational 
and multinational team. Our focus on aviation modernization 
comprises two parallel lanes of execution: modernization 
through new platforms and targeted modernization efforts for 
the current platforms.
    My office and my Program Executive Office Aviation, work 
closely with the Army Futures Command and Brigadier General 
Rugen's Future Vertical Lift Cross-Functional Team to rapidly 
develop capabilities to support multidomain operations. Key 
efforts include the Future Attack Reconnaissance Aircraft, 
FARA, which is designed to fill a critical armed reconnaissance 
capability that currently exists in our formation; and the 
Future Long-Range Assault Aircraft, FLRAA, which is projected 
to replace the UH-60 Black Hawk with increased speed, range, 
payload, and endurance.
    At the same time, the fiscal year 2021 President's budget 
request also invests in the readiness and modernization of our 
current Black Hawk, Apache, and Chinook fleets needed for the 
foreseeable future.
    I would like to take a moment to address our reform 
efforts. The Army continues to implement initiatives granted by 
Congress in order to streamline and gain efficiencies in our 
acquisition process.
    Specifically, aviation has been playing a key role in 
implementing the Army's intellectual property policy, which 
stresses identifying and planning IP needs early in the life 
cycles of any system. And PEO [Program Executive Office] 
Aviation is participating in Program Management Resource Tool, 
PMRT, a pilot program which captures and manages our program 
data across the enterprise to enable real-time analysis and 
data-driven decisions. This will further ensure Army senior 
leaders have the information necessary to make well-informed 
decisions on Army programs.
    Mr. Chairman and distinguished members of the subcommittee, 
we are grateful for your strong and steadfast support for our 
soldiers and our soldier aviators, as well as our Army 
civilians and their families. Thank you for the opportunity to 
appear before this committee, Mr. Chairman. We look forward to 
your questions.
    [The joint prepared statement of Secretary Jette and 
General Rugen can be found in the Appendix on page 41.]
    Mr. Norcross. Thank you.
    Mr. Geurts.

 STATEMENT OF HON. JAMES F. GEURTS, ASSISTANT SECRETARY OF THE 
 NAVY FOR RESEARCH, DEVELOPMENT AND ACQUISITION, DEPARTMENT OF 
  THE NAVY; LTGEN STEVEN RUDDER, USMC, DEPUTY COMMANDANT FOR 
  AVIATION, HEADQUARTERS U.S. MARINE CORPS; AND RADM GREGORY 
  HARRIS, USN, DIRECTOR, AIR WARFARE, OFFICE OF THE CHIEF OF 
                        NAVAL OPERATIONS

    Secretary Geurts. Chairman Norcross, Ranking Member 
Hartzler, and distinguished subcommittee members, thanks for 
the opportunity to appear before you today to address the 
Department of the Navy's fiscal 2021 budget request. Joining me 
today from the Department of the Navy are Lieutenant General 
Steve Rudder, Deputy Commandant for Aviation, and Rear Admiral 
Greg Harris, Director of Air Warfare. With your permission, I 
intend to provide a few brief remarks and submit a statement 
for the record.
    We thank the subcommittee and all of Congress for your 
leadership and steadfast support. Your efforts to fully fund 
the fiscal 2020 budget provides the stability and 
predictability and funding that enable us to build and sustain 
the naval aviation force that the Nation needs so we can 
execute the maritime component of the National Defense 
Strategy.
    In 2019, the Department delivered 125 new manned aircraft 
and 15 unmanned air systems to the Navy and Marine Corps, with 
a plan of delivering an additional 125 aircraft this fiscal 
year. As we continue to modernize the fleet, we have also 
focused on aviation maintenance, delivering higher aircraft 
mission-capable rates, reducing maintenance backlogs, and 
enabling our maintainers to do a better job of supporting our 
fleet.
    The Department achieved our goal of an 80 percent mission-
capable rate for the F/A-18E/Fs and EA-18Gs in October 2019, 
and periodically throughout 2019 for the Marine tactical 
aircraft. We are committed to maintaining and expanding these 
systematic improvements.
    Our 2021 investments build upon these initiatives in order 
to lever a ready, capable, and global sea-based and 
expeditionary force. Our vision is to provide the right 
capability in the hands of the warfighter on schedule and in 
the most affordable manner possible. The fiscal year 2021 
budget procures 121 aircraft with 537 aircraft across the FYDP 
[Future Years Defense Program], increases depot maintenance and 
logistics funding, increases our flying-hour program, and 
continues to make investments in many key Navy and Marine Corps 
development programs to ensure readiness for the future fight.
    Additionally, our 2021 budget makes focused investments in 
our fleet readiness centers, enabling the procurement of more 
modern equipment and implementation to process and workflow 
improvements, similar to what the Navy is doing in the public 
shipyards.
    Minimizing the risk of physiological episodes [PEs] 
continue to be the naval aviation's top safety priority and 
will remain so until we understand and mitigate all causal 
factors. We have reduced PE for legacy Hornets by over 80 
percent and seen similar improvements in the T-45 aircraft. In 
January, we had zero F/A-18 PE incidents, the first month with 
zero since the summer of 2011. The Department will continue to 
work to drive PEs to the lowest possible level.
    Naval aviation operates forward near our potential 
adversaries' home shores. We thank you for the strong support 
this subcommittee has always provided our sailors, our Marines, 
and our families. And we thank you for the opportunity to 
appear before you today. We look forward to answering your 
questions.
    [The joint prepared statement of Secretary Geurts, General 
Rudder, and Admiral Harris can be found in the Appendix on page 
51.]
    Mr. Norcross. Thank you.
    Dr. Roper.

STATEMENT OF HON. WILLIAM B. ROPER, JR., ASSISTANT SECRETARY OF 
   THE AIR FORCE FOR ACQUISITION, TECHNOLOGY AND LOGISTICS, 
    DEPARTMENT OF THE AIR FORCE; GEN JAMES M. HOLMES, USAF, 
COMMANDER, AIR COMBAT COMMAND, HEADQUARTERS U.S. AIR FORCE; AND 
 LT GEN DAVID S. NAHOM, USAF, DIRECTOR OF PROGRAMS, OFFICE OF 
     THE DEPUTY CHIEF OF STAFF FOR PLANS AND REQUIREMENTS, 
                  HEADQUARTERS U.S. AIR FORCE

    Secretary Roper. Chairman Norcross, Ranking Member 
Hartzler, distinguished members of the subcommittee, thank you 
for the opportunity to be here today to testify on this 
important topic. Aviation is the key to winning on the 
battlefield. Air superiority is the hallmark of our military, 
and we are committed in the Department of the Air Force to keep 
it that way. I am delighted to be here with our distinguished 
colleagues from the services and to share this hearing with 
General Holmes and General Nahom, who are great wingmen in 
trying to modernize our future Air Force.
    The National Defense Strategy makes it very clear that time 
matters. We have a capable adversary, capable adversaries, 
China and Russia, who can match us technologically, and in the 
case of China, economically. So the need to modernize the force 
while we have a window of opportunity and divest legacy assets 
that are draining our resources that could go into advanced 
warfighting capabilities could not be a more important nor 
timely topic.
    We know that we have to provide 2,100 fighters to meet the 
needs of our combatant commanders, along with all the support 
equipment, training, and other systems, such as combat rescue, 
that enable those fighters to be a fighting force at the future 
edge of battlefield. We are focused on doing that in the Air 
Force. We are focused on training pilots better using 
technologies like AI, artificial intelligence, tailored 
training so that pilots get through the training pipeline 
faster and are able to take on combat duties.
    But we are focused on far more that just what we buy and 
how we modernize. We care about the speed at which we do it. We 
are very thankful for authorities that you have granted and 
championed, things like section 804 that allow us to get on 
contract faster with industry, do more prototyping, which is 
just flying before you buy so that we can remove time from our 
programs and deliver faster for the warfighter. To date, we 
have removed approximately 125 years from traditional programs, 
and we look forward to continuing to drive speed and delivery.
    Modern practices in software development are also helping 
us bring greater lethality to the edge. Practices like 
DevSecOps or agile software development are fundamentally 
changing how fast we can modernize systems and keep them 
relevant. Even though we may talk about the airplane, the 
software on it is an increasingly important part of its 
lethality. We have to modernize it at the speed of need.
    We are excited about new technologies like digital 
engineering that will change the way in which we build and 
design systems and modernize future systems that we don't have 
today. We look forward to sharing those with you both in this 
open hearing and in a closed setting.
    We thank you for the focus that you put on supporting the 
Department of the Air Force, our airmen, and their families. We 
thank you for your time today for this hearing. Our time 
matters when we have a capable adversary. In the Department of 
the Air Force we try to make every year, every budget count. We 
look forward to sharing with you the highlights of this budget 
today.
    [The joint prepared statement of Secretary Roper, General 
Holmes, and General Nahom can be found in the Appendix on page 
79.]
    Mr. Norcross. Thank you for your statement.
    So, Dr. Roper, let me just start with a couple of comments, 
because it is indicative across all the services. Window of 
opportunity, why is now that window and it wasn't 2 years ago 
or 2 years from now? And the second question, in your 
statement--or in your testimony, you talk about being embraced 
by the Secretary of Defense goal of irreversible moment. Why is 
it, A, irreversible at this moment and--hasn't happened before, 
because obviously we have made changes. And why is now that 
window of opportunity?
    Secretary Roper. Chairman Norcross, if we had our druthers, 
I think we should have started this pivot a couple of years 
ago. And I think many of you I have worked with in past jobs 
focusing on peer competition high-end warfighting. It is a 
significant challenge today. If you go back to the Cold War, we 
were generating most of the technology that found its way to 
the battlefield. We were the major generator of technology in 
the world. And now we live in a world where the Defense 
Department is only 20 percent of the R&D [research and 
development] that happens in this country. We live in a world 
that is technology rich. And so that should give us both 
concern, but also, you know, a lot of appeal, because we live 
in a time where we can pull things into future warfighting 
systems.
    China has been modernizing, looking at how our military 
operates in the Middle East. It has been on display, our 
playbook has been understood. The counters have been done. And 
if we continue to build the same kinds of systems and fight the 
same kind of way, we are playing into their hands. Playing into 
a fight that they understand and know how to counter. So the 
reason that now is the time is that if we simply wait until the 
fight happens, we won't have the time to build new systems, new 
training, new techniques so that we retain the overmatch that 
we have enjoyed.
    Mr. Norcross. So you are suggesting the risk is less now is 
why that window is open?
    Secretary Roper. The risk will always be less now than 
waiting. We have to start now to create options for the future.
    Secretary Esper's comment of making the National Defense 
Strategy irreversible I think is simply moving the portfolios 
of the services to focus on high-end warfighting. The 
capabilities that we can build to take on a peer, the training 
that is needed to take on a peer can be taken into the 
uncontested environment and to low-intensity conflict, but you 
can't take low-intensity conflict into the peer fight. And so 
this pivot towards irreversibility is getting our portfolios 
properly modernized so if the Nation calls upon us to project 
power in a contested environment, we will have options for the 
commanders to do that.
    Mr. Norcross. Thank you.
    So, Admiral Harris, let me shift things over to the Navy 
here. And in my opening remarks, we talked about the 44 strike 
fighters change per air wing, does not include attrition of the 
aircraft. Obviously, every time something goes into the 
maintenance depot, we find things out that help educate us, 
whether it is corrosion or otherwise. So can you explain to the 
committee why the Navy does not plan for attrition of the 
reserved aircraft in the carrier wings? And what risk is 
involved in that?
    Admiral Harris. Sir, there is risk--thank you for that 
question--in the attrition aircraft, but it is a balanced mix 
for the Navy as we looked across the number of combat-coded 
aircraft that we need to be able to meet that high-end fight 
for those nine carrier air wings. That balance comes in the 
result of ensuring that you have enough in depot maintenance 
that are coming out ready to be forward deployed with the 
forces while we bring the others back into the service life 
modification program. So it is a balanced risk that we are 
taking right now based on the current budgets.
    Mr. Norcross. So I know my ranking member is going to have 
a lot of questions on the F-18, but I want to talk about what 
has happened recently with the first two Super Hornets coming 
into service life maintenance found a tremendous amount of 
corrosion. I can't say areas it was not expected, because the 
maintenance schedule suggests that we should do things to 
protect those. And here we are blowing the budget out, the time 
out.
    A, what are we doing to prevent further problems? And are 
those first two aircraft the most difficult ones or are we 
going to fall into this? And what are we doing to change it so 
we don't face this sort of thing?
    Secretary Geurts. Yes, sir. I think it is a combination of 
factors. One of the factors is we are finding more corrosion on 
the airplanes. And I will ask Admiral Harris to talk about what 
are we doing on the operational fleet to get after that so that 
we can not get the corrosion and have to pull it out to the 
extent we are.
    The other thing we changed a little bit in the SLM [service 
life modification] program is we have added a bit to it so we 
deliver a fully mission-capable airplane out of SLM. In other 
words, we bring in all the phase maintenance checks. So when we 
hand it back to the wing and the squadron, it is ready to go. 
Previous service life extension programs have just, you know, 
done things for the airplane but not taken advantage of the 
fact we had the airplane all pulled apart.
    The third piece is working closely with Boeing to 
productionize this service life extension. In other words, not 
get every airplane being its own custom, artisan activity. We 
need get that into production flow. So some of the risk of 
shutting the F-18 down, line down, after 2021 will be taking 
advantage of that line to productionize, to get to our goal of 
40 airplanes a year through that SLEP [service life extension 
program] line.
    Mr. Norcross. So let me ask you while you are on that, the 
first two picked out and we found the corrosion much worse. Are 
we anticipating that to continue or are you expecting that to 
drop? And what have you done to rectify the budget and the time 
schedule?
    Secretary Geurts. Yes, sir. Twofold, we are working on our 
maintenance on the flight line and our procedures on the flight 
line using best practice out of commercial aviation to reduce 
exposure to corrosion, only open it up once, button it up, as 
opposed to open it up many times. And then I expect over time 
as that gets into the fleet, that component of uncertainty will 
drop down.
    Mr. Norcross. Admiral Harris, did you have anything to add?
    [Audio malfunction in hearing room.]
    Admiral Harris. Just to add, maintenance reset right now 
looking at a line all of our inspections to try to prevent, to 
the Secretary's point, opening a patient more than we need to. 
So we don't have to perform an inspection, we don't have to 
open an area and expose it to the elements and perhaps not put 
the corrosion [inaudible] back in as we are putting it back 
together. We are going to cut down on that.
    The second thing we are doing for all the aircraft as they 
are coming in the SLM line 6 months [inaudible] what areas we 
need to work on so the fleet can work on those areas prior to 
the aircraft entering SLM.
    Mr. Norcross. So maybe you can explain. As we understand 
it, from the manufacturer there are certain processes that were 
supposed to take place. And what they suggested, the way of 
fixing it, were the ones that were suggested, they weren't 
followed. So, A, not so much why wasn't it followed, but have 
we corrected those actions? And why haven't they followed the 
manufacturers' suggestions?
    Admiral Harris. Sir, I think what we will find, Chairman, 
is that as we perform maintenance on the aircraft, frequently 
we are adding inspections as we see things that we think we 
need to do. So it is oil-changing your car more frequently than 
the manufacturer recommends. So you are opening panels more 
frequently. As we can align all of those inspection cycles and 
prevent that, the idea will be to open it less frequently, more 
along the lines of what we should be doing. And then the other 
piece gets down to using the precise material when you are 
putting corrosion prevention on the surfaces prior to putting 
them back together. We need to get back to the correct 
material.
    Mr. Norcross. We don't want to get too deep in the weeds, 
but closing up the proper way. It is not the opening, it is the 
resealing that is the problem.
    Admiral Harris. Yes, sir.
    Mr. Norcross. Thank you.
    Dr. Jette, our Chinook, we put in there last year the idea 
of the advanced procurement. As we understand it, that is still 
is in the same position as we put it a year ago. That is the 
first question. The second one is minimum sustaining rates, 
whether it is 24, 18. The answer a year ago was we needed a 
robust program that--more speed for the future, more weight.
    When we look at the program, the way that we are hearing 
you say it, that foreign military sales is going to bring up 
that minimum sustaining rate. Right now, I think there is only 
one that has been signed and one potentially. First, give us an 
update on foreign military sales that can feed the beast, shall 
we say, of keeping that line running. And then I have a 
followup.
    Secretary Jette. Yes, sir. So I will start with the foreign 
military sales. On the foreign military sales, we are able to 
maintain the minimum sustaining rate. So we worked with Boeing 
on minimum sustaining rate and the one defined that we both 
agreed to----
    Mr. Norcross. Is how many?
    Secretary Jette. Eighteen.
    Mr. Norcross. Okay.
    Secretary Jette. And 18 is one shift a day, 8-hour day, 5 
days a week, throughout the year. The minimum sustaining rate 
is 18. We have orders in place for out to 25, we believe, were 
at those minimum sustaining rates.
    Mr. Norcross. Really?
    Secretary Jette. We have moved some of our ORF [operational 
readiness float] deliveries just to the right, which lets us 
make sure that we fill in some of the gaps. We have an LOA 
[letter of offer and acceptance] waiting signature with the 
U.K. [United Kingdom]. We are pretty confident that that will 
follow through. They are going through their current budget 
works as well. We expect that by October. That is very 
promising.
    We also have visibility on direct commercial sales, so that 
sometimes what happens is we make our counts based purely on 
the number that are being produced for foreign military sales, 
which is separate from direct commercial sales. Some countries 
do direct commercial sales. Some countries want to go through 
the foreign military sales and leverage some of the training 
and things you can get, sustainment that you get through the 
FMS.
    So the Netherlands has on contract through direct 
commercial sales six new builds for Block Is; delivery in 2021. 
We have Singapore is on contract for direct commercial sales 
for eight new builds as well. And we have laid these out with 
respect to the profiles.
    Mr. Norcross. In the interest of time, we will get the 
actual numbers, but they are going to meet the minimum 
sustaining rate?
    Secretary Jette. Yes, sir. Out to 2025 is where we think we 
are good.
    Mr. Norcross. Okay. In the second round we will get back to 
it.
    Mrs. Hartzler.
    Mrs. Hartzler. Thank you.
    Just to pick up on the F-18 questions that my colleague 
started with there. So first of all, would you affirm that we 
have a 49 airplane shortfall right now?
    Admiral Harris. Yes, ma'am. That is correct.
    Mrs. Hartzler. Okay. And that is one carrier wing. And you 
confirm that we are having--you are suggesting this budget to 
cut another 36 Super Hornets out that were projected to be 
built, but now you don't have them?
    Admiral Harris. That is correct, ma'am.
    Mrs. Hartzler. Okay. I know you said that it was a balance 
risk. I feel like this is too much operational risk. And I want 
to get some clarity on as you talk about the service life 
extension and maintenance. So how are you addressing this 
shortfall? It sounds like you are just going to maintain and 
rehabilitate the current ones, is your plan?
    Secretary Geurts. Yes, ma'am. And again, the transition 
risk between fleets is always where we are at most risk. And so 
our 2021 budget fully funds the F-18 production at 24.
    Mrs. Hartzler. Future life.
    Secretary Geurts. That gives us some time--we, again, made 
some hard decisions on F-18. As the SLM line comes up towards 
our goal of being able to take 40 airplanes into that line a 
year, we can understand the balance of that risk. And as we 
brought the mission-capable rate of aircraft up across the 
Department of the Navy, that gives us additional up aircraft to 
help balance that shortfall. So it was an affordability 
balance. We are trying to work the balancing act again fully 
funding the 2021 that 3-year multiyear so that we can continue 
to watch that this year and ensure the decisions we made in 
2021 reflected in 2022 out budget balance that risk 
appropriately.
    Mrs. Hartzler. So you are cutting into the outyears 36 
aircraft, then you are going to pull in 40 that are currently 
flying, into maintenance. How long does it take to go through 
the service life extension?
    Secretary Geurts. Right now, we are at about 18 months. 
When we get at full rate, our goal is to do that in 12 months.
    Mrs. Hartzler. So if you add all those up, this is a severe 
shortage that we are experiencing. And then if you don't count 
for the attrition rate actually in combat, we would have a very 
large gap there, potentially?
    Secretary Geurts. Yes, ma'am. We are taking this risk until 
the end kind of late 2020s. I think 2029 is when we will get to 
the full fighter inventory. So we have had to take some risk as 
we balance that.
    Mrs. Hartzler. Sure. General Rudder, as you heard that the 
Navy has this shortfall of 49 aircraft, but it doesn't account 
for attrition potentially, does the Marine Corps have a similar 
shortfall in strike fighter fleet? And if so, can you describe 
the shortfall and how it is being mitigated by the Marine 
Corps?
    General Rudder. Thank you, Congresswoman. Since the Navy 
divested of their legacy Hornets, we actually have a lot of 
Hornets that we are kind of sorting through to configure with 
the best of breed, the higher lot numbers, if you will. So, you 
know, for Hornets, we have 275; we need about 100, 143 on the 
flight line. So we have enough Hornets. We have enough 
carriers, even though they are down around 123.
    What the challenge for us is is the transition. When I say 
we have 18 squadrons amid the ongoing deployments that we have, 
we have squadrons coming and going from Asia right now, coming 
back from the Middle East, and F-35s and AV-8Bs in the ship as 
we speak.
    The challenge would be to maintain a 20 F-35 buy a year at 
least so we can stand up at least two squadrons a year as we go 
forward. So as we stand down a squadron, there is going to be a 
dip. Out of our 18 squadrons, we will have 16 available, if you 
will. But this transition will be probably the most challenging 
for us. Not that we will have less jets; it is just 
transitioning out of our old jets into the new ones to make 
sure that procurement cycle stays at 20 a year.
    Mrs. Hartzler. And there will be training that needs to go 
along with that too since you are switching aircraft and all of 
that. So it is not just an easy transition.
    General Rudder. It is not. That is why, you know, at every 
given year, you have two squadrons in a transition. It is 
training the maintainers, training the pilots to be ready to 
deploy, because much like anything else, as the ship mods come 
to being with our amphibious shipping capability, we are 
putting F-35s out there, to include the [HMS] Queen Elizabeth 
[British aircraft carrier]. So we are training people on multi-
fronts to not only deploy on the carrier with the Navy, but 
also deploy our amphibs and other commitments around the world. 
So it is an ongoing in stride transition for the F-35.
    Mrs. Hartzler. Great. Thank you very much. I have some 
others, but we will come back a second round.
    Thank you, Chairman.
    Mr. Norcross. Mr. Gallego.
    Mr. Gallego. Thank you, Chairman.
    General Holmes, on February 27, we received word that the 
Air Force was changing its retirement plan for 44 A-10 
Warthogs. Unfortunately, that change plan didn't reach Chief of 
Staff of the Air Force in time for him to add this to his 
testimony on March 4. Can you comment on what the new new plan 
is now?
    General Holmes. Yes, thank you, Congressman. Between 
General Nahom and I, we will work the numbers, and I will kind 
of talk about the impact, if that is okay. So as we brought our 
budget forward, we are trying to balance the need to go forward 
with fifth-gen aircraft, keep a fourth-gen balance, and conduct 
all the roles that the Nation expects us to do. All around the 
world, then, as we balance that force and we look at rebuilding 
it, we wanted to come through and maintain seven squadrons of 
A-10s, which is enough for us to have one overseas in PACAF 
[Pacific Air Forces] that is stationed there, and then have six 
that can be rotationally available. We keep about one squadron 
of A-10s deployed in the CENTCOM [U.S. Central Command] area of 
operations to meet the requirements there. And with those 
numbers, we can still meet those requirements. We can do the 
wing upgrades that are required to keep the A-10 useful. And we 
can bring all of the A-10 fleet up to the same configuration so 
that they are all just as capable. And General Nahom will talk 
about the numbers.
    General Nahom. Congressman, so for the A-10, as we work 
ourselves through the F-35/A-10 comparison testing, we know the 
restrictions on the retiring. We are watching----
    Mr. Gallego. Just to interrupt you there, General. 
Actually, I want to bring that up. So we have the requirements. 
The report is supposed to come out when?
    General Nahom. We are expecting a report in the early fall, 
sir.
    Mr. Gallego. Okay. So the Air Force has decided to retire 
A-10s, over our own objections here. What is the point of the 
report? You guys kind of made decisions before the report came 
out and came back to us.
    General Nahom. Sir, that is our plan. We fully intend to 
comply with the law about when we can retire the A-10s, but 
right now, we are planning for the next phase of the A-10. 
Because when we get past the comparison testing, when we start 
using F-35 for many of the high-end missions that we are 
planning on----
    Mr. Gallego. I guess the point I am trying to make is that 
it seems prejudicial that you guys already made decisions or 
planned the future of the A-10 without showing us the report so 
we can have our input, you know, about the comparison between 
the F-35 and the A-10. Do you see how that will look on our 
behalf, how we see things?
    General Nahom. Yes, sir. And we are working very closely 
with DOT&E [Director, Operational Test and Evaluation] on the 
report, not only that, but the IOT&E [initial operational test 
and evaluation] for the F-35, because it is very important 
before we go forward with next phase of the A-10. But what we 
need from the A-10 moving forward is we still need that 
airplane in service. We just have to make sure that the A-10s 
we keep we upgrade, not only with new wings, with a new digital 
backbone in the avionics to make sure this can be an aircraft 
that we can use very effectively in low-end conflict for the 
next 20 years. And we think that is actually a pretty good news 
story for the A-10. We intend to make sure we get those numbers 
right.
    Mr. Gallego. Back to you, General Holmes. I guess the 
bigger question is--we could argue back and forth whether we 
are doing this report correctly, in the right manner--but how 
did this plan basically evolve to the point where, you know, in 
my opinion, it seems to be predetermined, without any input 
from Congress? Specifically, if you look at the history of the 
A-10 in Congress, it has had consistent bipartisan support. So 
for many of us here, it was quite surprising that some of the 
Air Force showed up with this plan. That was the first time we 
had heard about it. There wasn't any other type of input, 
especially from the authorizers on this side.
    Admiral Harris. Sir, I am going to again defer that 
question to the Headquarters Air Force. I think our goal in our 
combat command, as General Nahom said, was to make sure that 
all the A-10s we kept for another 20 years were useful and it 
could continue to do what they do on the battlefield well. As 
far as the decisions at the Headquarters Air Force, I will 
defer that to General Nahom.
    General Nahom. And, sir, as we looked at the A-10 numbers, 
as we look at all our fleets, we are very keen on making sure 
we balance the risk across all our portfolios. We want to make 
sure we have enough of the modernized fighters, the F-35s, for 
the high-end fight, as Dr. Roper alluded to in his opening 
comments. And having that balance----
    Mr. Gallego. I mean, I understand that, but, you know, most 
of our fights still right now are not high-end fights. We find 
ourselves more doing close air combat support more than 
anything else.
    And thank you for your time, gentlemen.
    Mr. Chairman, just want to note, as I said to General 
Goldfein last week, for me, the fact that I think the process 
was just tossed aside from the 2017 NDAA, it is just--you know, 
for me, it is quite galling. And I really would hope that the 
committee would work with me to ensure that, you know, we don't 
allow Congress' voice to be not heard again.
    Thank you.
    Mr. Norcross. Comments are noted. Thank you.
    Mr. Banks.
    Mr. Banks. Thank you, Mr. Chairman.
    I want to ask the panel about the Future Long-Range Assault 
Aircraft. Last year, you requested and Congress appropriated 
funds to accelerate the program based on significant testing 
progress. Secretary Jette and General Rugen, could you give us 
a picture of where testing currently stands for the program?
    Secretary Jette. Yes, sir. Thank you for the question. I 
think what we saw with the request that was made and supported 
by Congress last year really set the conditions for a 4-year 
acceleration from where we are currently in tech demonstration 
to a program of record and a full weapon system. So what 
happened last year was a great year of successes as we made it 
through our analysis, as we made it through CAPE [Cost 
Assessment and Program Evaluation] sufficiency. And we saw both 
tech demonstrators fly. We wanted to double down on that 
success, and we needed that help to basically in this budget 
you see a 4-year acceleration.
    Mr. Banks. Mr. Secretary.
    Secretary Jette. What we are doing, sir, is we are taking--
we have looked at the successes of the FLRAA. We are looking at 
the flight capability of both aircraft at this point, and we 
have begun putting together the final formal plan to move to a 
flight--full program of record. The conceptual design and 
requirements for a full acquisition strategy will be completed 
by next year. We will then determine contract award in fiscal 
year 2022 and with FUE [first unit equipped] in 2030. It looks 
so far since we have seen six promising, and you can go down 
and watch the aircraft fly both of the versions right now.
    Mr. Banks. So it sounds like both of you can reassure this 
committee that the program will meet the accelerated timeline.
    Secretary Jette. At this point, we believe so. Yes, sir.
    Mr. Banks. Are there any particular performance metrics 
that you consider to be indicative of future success in the 
program?
    General Rugen. I think we had an independent tech readiness 
assessment by OSD [Office of the Secretary of Defense] last 
year where they named nine technologies that were risk areas 
that we needed to burn down. We fully understand those risk 
areas. Some of the most prominent are the full authority fly-
by-wire flight controls, the drivetrain, the powertrain and the 
like. And again, because we got that report early, probably 
years earlier than we normally would have, we are already in 
our next phase driving that risk down.
    Secretary Jette. Yes, sir. And I would like to add, so 
elements of overmatch that we see on the aircraft is reach--one 
of them is reach. It has got three subcomponents: speed, range, 
and endurance. Both aircraft have significant improvement over 
what it's fundamentally replacing, which is OH-58. It does have 
a lethality component, which was very limited on the OH-58, but 
it will be much more flexible on this version, and the 
survivability of the aircraft. Because of the integrated 
ecosystem, in other words, these aircraft are intending 
specifically to be able to work together and understand the air 
picture, it will give them an increased survivability by 
knowing where air defenses are, where radars are, how to use 
the NOE, nap-of-the-earth, flights and mask from different 
systems. So we are bringing all of these things to bear in 
trying to make all of these actually, the FLRAA, FARA, and see 
how much of that we can push into our existing systems.
    Mr. Banks. Let me finish by just asking, do you anticipate 
anything that might alter the current timeline or provide an 
opportunity even to accelerate the testing in this budget cycle 
or future cycles?
    Secretary Jette. Sir, I think that being an acquisition 
person who has actually had to build stuff and put on the 
field, I think we are about as aggressive as I am prepared to 
go at this point, but I think it is still well within reason 
that we can get there by 2030.
    Mr. Banks. Thank you very much.
    I yield back.
    Mr. Norcross. Mr. Courtney.
    Mr. Courtney. Thank you, Mr. Chairman. And thank you to all 
the witnesses that are here today.
    Lieutenant General Rudder, I just want to spend a minute 
just to catch up on the CH-53K heavy-lift replacement program. 
Last year, I know we went back and forth with some 
reprogramming issues regarding the exhaust gas reingestion 
problem, which is one of the most unpleasant sounding terms I 
think we have ever heard here. But it does seem like that issue 
has been sort of worked through. And I was just wondering if 
you can sort of give us an update as far as how that stands 
right now. And then I just have another question after that.
    General Rudder. I will begin, but I have to thank Secretary 
Geurts sitting next to me that they really did a great job of 
putting the package together. We had 126 deficiencies. One was 
the gas reingestion. They fixed that. I know there is some 
concern about where the budget is this year. We put seven in 
there because it wasn't fixed yet and he had not signed off on 
it yet, so we just put seven in. But we plan on ramping up from 
there. But the testing is going well. We've got 1,700 hours on 
the airframe itself. By this fall, we will have our first 
operational airplane flying in New River. And by next year, we 
will have our first four operational airplanes flying in New 
River, and we have got our first squadron on contract. So, 
right now, it is on track and going very well. I have got to 
thank the acquisition community for putting it on track.
    Mr. Courtney. Well, I think you are right. Actually, Mr. 
Geurts was deeply involved in terms of trying to work that 
through with the Appropriations Committee. And I am glad, you 
know, we had a good ending to that.
    Again, you sort of alluded to the fact that, you know, now 
we are pretty close to going to a higher production rate than 
low rate. I mean, can you give us kind of a horizon in terms of 
how you see that moving forward?
    General Rudder. Yeah. We put in seven. I mean, you see 11 
the following year. We are hoping, you know, we can stay at 
that. We are hoping the budget stays, you know, where it is and 
it is acceptable. But obviously we would like to get higher. 
The higher the numbers, the greater the learning curve from 
production. And as we saw with the F-35, the greater the cost 
curve, as we saw the F-35, as you ramp production, cost curve 
came down. We can already see a cost curve beginning to take a 
turn with the 53K. So I think increased production will bring 
that cost curve down more efficiently.
    Mr. Courtney. Mr. Geurts, did you want to add anything?
    Secretary Geurts. No, sir. I would agree with ``Stick.'' I 
mean, a couple of good things. We negotiated that production 
contract, so any of these fixes will go into the production 
aircraft so we are not handing the field an aircraft that 
doesn't have the fixes in, which I think is important. That 
also means we can accelerate production. And so with the fixes 
already in, we will accelerate that production ramp to get it 
as most efficient as possible.
    Mr. Norcross. Thank you.
    Mr. Lamborn.
    Mr. Lamborn. Thank you, Mr. Chairman, for having this 
hearing. Thank you all for being here and what you do for our 
country.
    General Holmes, could you provide the subcommittee with an 
update that is appropriate for an open setting like this on 
where we believe Russia and China are with their fifth-
generation aircraft production?
    General Holmes. Yes, sir. Thank you. I will do my best. We 
believe that China is in front of Russia in their ability to 
build an airplane that matches the capabilities that we can. So 
the J-20 is the airplane that we talk about. In China, they 
have shown they can build it. They haven't shown yet how many 
they can build and whether they can build it in numbers, but 
you wouldn't want to bet against China being able to do that. 
So they have a small number of airplanes that are close to par 
with our capability to build.
    The Russian airplane that compares is not as far along on 
the fifth-generation ladder as what China is building. It is a 
capable airplane, we believe, but they haven't shown the 
ability to build it in numbers yet. They continue to run into 
production problems and cost problems, we believe. And so I am 
more concerned with China's ability to build a peer aircraft 
and to produce it in mass numbers than I am with Russia at this 
time.
    Mr. Lamborn. Okay. Thank you. And then also, General 
Goldfein testified last week that the Air Force is short about 
2,000 pilots. Can you discuss any efforts by the Air Force to 
accelerate pilot production and experience, and especially in 
the area of fifth-generation pilots?
    General Holmes. Yes, sir. Again, thank you. We have several 
efforts going on. It starts with trying to make sure that we 
offer a place where our young aircrew and all our operators can 
find meaning and purpose enough to stay in this career for the 
long term in the face of, you know, competing economic 
opportunity somewhere else. So it starts with trying to build 
an Air Force that they want to stay in for the long term and 
talking about the importance of what they do.
    The next place is production. We know that to make up that 
2,000 pilot gap, we are going to have to produce more pilots 
every year. So my colleagues in Air Education and Training 
Command have been ramping up production every year, both 
maximizing the use they have with the legacy equipment, the T-
6, the T-38, and the T-1, and then looking for new ways to 
produce pilots better and faster, like Dr. Roper talked about, 
through Pilot Training Next, now kind of pilot training 2.0, 
and to see if we can produce a better pilot faster using new 
techniques. And we believe that we can. Right now, most of our 
pilots are still trained very close to the way we trained them 
in 1947, and certainly very close to the way we trained them in 
1981 when I went to pilot training; same number of hours, same 
number of syllabus requirements, doing it the same way. And we 
believe that we have the ability to speed it up and make better 
pilots.
    Mr. Lamborn. Thank you. Thank you for all being here and 
for the answers to those questions.
    And, Mr. Chairman, I yield back.
    Mr. Norcross. Thank you.
    Mr. Golden.
    Mr. Golden. Thank you, Mr. Chair. Thank you to the panel 
for being with us today.
    Good to see you again, Secretary Geurts. It has been a 
couple of days.
    General Rudder, I just want to give you an opportunity to 
talk a little bit about the Commandant's future design for the 
Marine force and how that is going to impact your plans for 
aviation force structure, comp [component] and total aircraft 
inventory requirements. You know, just looking ahead a little 
bit, what can you tell the subcommittee about what to watch 
for?
    General Rudder. Yeah. I don't have an exact number. He is 
actually walking the hallways as we speak briefing up different 
leaders in the building. I will offer that, you know, one of 
the challenges we have with force design to switch to a major 
competitor is to pull ourselves out of most of the operations 
we are doing around the world. I think it is the same for all 
my partners at the table here. So that will be the challenge on 
what we do, because in some cases, we have aircraft there in 
places that we kind of like to use them somewhere else. So 
being able to focus on the Pacific with what the Commandant 
wants to do and his force design will be based a lot in part 
upon that and how much risk we assume.
    I would offer that in all the aviation you heard them talk 
about 200 53Ks. He has openly said that in these particular 
forums. And all the different force design elements, aviation 
plays a key role. I guess I will stop at that.
    Mr. Golden. That is all I have. The next thing I was going 
to ask was about how the CH-53K figured into that new force 
structure. So you got right on it. Thank you very much. I 
appreciate it.
    Mr. Norcross. Thank you.
    Mr. Bacon.
    Mr. Bacon. Thank you, Mr. Chairman. And thank you all for 
being here today.
    And I just want to point out it is a pleasure to see 
General Holmes, who I worked with 7 or 8 years ago on the sale 
and the integration of the RC-135 to the RAF [Royal Air Force] 
and the F-35. So it is great to see you back.
    My first question is to Dr. Roper and General Holmes. A few 
years back, we cut the Joint STARS [Surveillance Target Attack 
Radar System] and we moved that money to help fund the future 
of the ABMS [Advanced Battle Management System]. I see in this 
budget we are also making major cuts to the Global Hawk, to the 
Reaper, I think again to move funds to the ABMS. We also heard 
this past week and last week how important to the Army and the 
Marines the long-range fires are and integrating that. And they 
rely on ISR [intelligence, surveillance and reconnaissance], 
the Air Force ISR to do that.
    So really my question is to Dr. Roper and General Holmes, 
what is the timeline to get ABMS operational? When is the 
combatant commander going to start getting data off this ABMS? 
What is the future of MTI [moving target indicator] or the 
moving target--the capability, the ISR capability that is in 
high demand, what are those timelines? Thank you.
    Secretary Roper. Thank you, sir. I will talk to how we are 
going to do it, and I will turn it over to General Holmes for 
what the operational impact will be.
    So the Advanced Battle Management System is going to 
challenge everything about how we bring capability to bear for 
the warfighter. It is really--it is a stark contrast when you 
leave your personal life and then you go work in a military 
organization. You leave a personal life where you are connected 
to almost everything, analytics push data to you that you don't 
have to request. You interact with it, it allows those 
analytics to improve. So decision at machine speed is something 
we really need to fear, because if we face it on the 
battlefield, it is one technology that might negate the human 
advantage that we currently enjoy. So what we have to do in 
Advanced Battle Management System is build the Internet of 
Things but where the things are military systems--so fighters, 
ships, soldiers--that are pushing data to that centralized 
infrastructure but that are also getting data pushed to it.
    Mr. Bacon. [Off mic.] From what I understand, the timelines 
is what scares us.
    Secretary Roper. It is. If we do this as a traditional 
acquisition program, I will already tell you it has already 
failed, right. It is too big, it touches too much. So the way 
we are doing it is pushing out capability in 4-month cycles. If 
we let it go further than that, we are not moving in internet 
speeds and we are injecting too much risk. So the idea is 
having multiple activities that have to come to bear and live 
fly. The first one happened in December. We connected the F-22 
and the F-35 for the first time. That is great. That is not the 
capability we want to have a year from now, but it is the first 
step, and it allowed us to retire the risk, learn, and give 
better data to our engineers to iterate.
    We are going to do another activity in April, bigger, 
better, with the way we connected the F-22 and the F-35, rather 
than being something that is on the ground, we are going to fly 
it on an attritable drone. So we take that next evolution.
    The best advice we got from people that built the internet 
is do it in rapid iterative spirals, fail very frequently, and 
ensure that risk is retired and given back to engineers so that 
you can deliver capability in 15 percent slices. And the 15 
percent slices got my attention, because we typically talk 
about 80 or 90 percent solutions at the end. Their point was 
design it so the slices stack towards greater capability, but 
don't wait on delivering to the end. And so we are going to 
continue that through the program, sir.
    [Audio malfunction in hearing room.]
    Mr. Bacon. [Off mic, inaudible.]
    Secretary Roper. Sir, the biggest risk is if we don't 
succeed on ABMS, if we cannot bring internet-type connectivity 
to the military, we have already failed. We will face 
adversaries who can fight at machine speed and we won't. We 
have to have those things like cloud and software to find 
networking and mesh ad hoc networking to move data the way the 
internet does. So we cannot fail on ABMS.
    To your question about divesting legacy assets, a lot of 
things we will need to plug into ABMS initially will be 
existing systems, but we are going to have to move a lot of how 
we do business into the classified domain. I know a lot of 
members of the committee have taken us up on classified 
briefings. We appreciate that. We know it is hard that we can't 
discuss it here, but if we are going to take on a peer like 
China, we are going to have to have some tricks up our sleeves, 
and how we do ABMS needs to be where some of our best tricks 
are.
    Mr. Bacon. [Inaudible.] --state of the warfighter or do you 
think we are there? Are we going to be able to meet it?
    General Holmes. Thank you, Congressman Bacon. I would start 
with I think we already face gaps in our systems that we 
possess now ability to gather the information we would need in 
a fight with Russia or China. They are still useful to us in 
what we call the preparation of the battlefield stage of 
finding information of indications and warning, but if it comes 
to a fight, we already have a gap in things like those older 
RQ-4s, the RC-135, the E-8. They are useful to us in peacetime, 
but we can't use them during that conflict. So we are trying to 
address that gap as we go forward.
    I think we already have more data than we can sort through 
to analyze and get to warfighters. And I believe that the work 
that our AQ [Assistant Secretary of the Air Force for 
Acquisition, Technology and Logistics] is doing, along with 
General Hyten and the rest of our service partners, is going to 
deliver that information as we need.
    Mr. Bacon. Mr. Chairman, I have some follow-on questions, 
but I hope I can get a second round. Thank you.
    Mr. Norcross. Thank you.
    Mr. Vela.
    Mr. Vela. Dr. Jette, the Army currently plans to upgrade 
over 750 UH-60s to the Victor model. Most of that work, if not 
all, is being done at Corpus Christi Army Depot. Can you 
provide the committee an update on this modernization program? 
Give us some insight and your thoughts on how things are going 
at Corpus Christi Army Depot and what you think the benefits of 
this entire approach are?
    Secretary Jette. Sir, in summary, I would say that things 
are going well. In 2018, we had 6 Victors converted; 2019 is 18 
converted; 25 in 2020; and we are planning to do 24 in 2021. We 
will continue moving through the rest of the fleet out until 
about 2034. The conversion process is going well. Corpus 
Christi is doing a fine job with the conversion process.
    Mr. Vela. Do you see anything about Corpus Christi Army 
Depot to suggest the process is being impeded?
    Secretary Jette. At this point, we are not competing the 
process. We are incorporating some commercial vendors into the 
process, and we are actually looking to see whether or not 
there is some added advantage to recompeting some of the 
subcomponents.
    Depots are very strong, very capable. They have a great 
deal of resources. It is good sometimes to see if we can inject 
some of the commercial perspective into the depot environment 
and facilitate a little bit more aggressive view of things.
    Mr. Vela. Thank you.
    Secretary Roper, I was recently at Creech and saw the 
important work you all do with the Reapers. In the fiscal year 
2021 budget, the Air Force cut its MQ-9 production to zero. Why 
the major change in plans, and how will the Air Force address 
its ISR gap?
    Secretary Roper. Thank you, sir. I will speak to my side of 
it and then turn it over to General Nahom for the requirements 
side.
    The Reaper has been a great platform for us. I mean, 4 
million flight hours, just undeniable overmatch in a low-end, 
uncontested fight and has certainly saved many lives. But as we 
look to the high-end fight, we just can't take them into the 
battlefield. You know, they are easily shot down.
    And so what we are preparing to do on the acquisition side 
as we take down the production line is build the next 
generation of systems. A lot of industry have come into the 
drone business, right? It is a big market right now, many 
commercial applications. And so we will look at a mixture of 
options for the future. There are things that are more high-end 
military unique, things that are meant to be able to survive 
even in a contested environment. Obviously, a lot of technology 
will have to go in, and they will be likely expensive systems.
    But we also see a lot of opportunity to bring in commercial 
technology, push the price point down, have systems that can be 
more attritable, we can take more loss with because we can 
field the quantities needed. And so we are doing studies right 
now looking at both ends, and I expect that is going to be one 
of our major decisions in the fiscal year 2022 budget for the 
Air Force.
    General Nahom. And, sir, yes, what Dr. Roper said is how we 
are balancing that measured risk with our ISR portfolio on the 
low end. As you noticed, in the budget, we are taking down the 
10 lines this year. And we are working very closely with the 
intel community and the combatant commands for a measured 
reduction in the coming years that matches some of the future 
initiatives that we have in the ISR force, especially in the 
low-end fight, because we do have to balance the risk with what 
we are doing current day with where we need to go in the 
future.
    Mr. Vela. So, General Rudder, how will the Air Force's cuts 
impact the Marine Corps development of a variant, of a Reaper 
variant?
    General Rudder. Well, I have to first thank General Holmes 
because we have been able to enter into this world through his 
network and his training, and we have just had our first two 
Reaper-certified Marine captains show up in Yuma with four 
sensor operators because of the Air Force training.
    So what we will do is I think, within our MUX system 
[Marine Air-Ground Task Force Unmanned Aerial System 
Expeditionary], we are going to have a family of systems, and 
one of those will be a land-based, long-endurance type of 
capability. The next generation MQ-9 could be part of that, or 
there could be something else out there. As Dr. Roper said, 
this unmanned systems enterprise, if you will, with industry is 
kind of wide open. There are a lot of opportunities out there.
    But I think the Air Force will continue to operate. We hope 
to be able to continue to operate with the Air Force as we have 
been looking at our next-generation unmanned system. But I 
think what we have learned from the Air Force has been 
invaluable. So we are ready to step out on our own system.
    Secretary Roper. Sir, one quick followup. Although right 
now we are talking about divesting systems, taking risk in the 
near term so we can modernize, one of the things we are very 
focused on for the next budget is not having to simply divest 
of current missions, but finding a way to do them cheaper.
    So a lot of commercial technology can help us in the low-
end fight, and we need to do a better job of leveraging it. 
This will be one of our first challenges, to find a very 
different price point for continuing to operate and provide 
invaluable ISR to the warfighter.
    Mr. Vela. Thank you for your perspectives.
    Mr. Norcross. So, 2 years ago, it was all about fifth gen. 
A year ago, we were reeducated to say we want fourth gen, and 
that mixture that go hand in glove. And when we look at the F-
15EX, that has changed from 18 originally; now we are down to 
12. It was explained to us back then that there was a certain 
mix going into a high-end fight that we would want to have.
    So, on one hand, we are increasing the buy for the F-35, 
and on this hand, we are decreasing the F-15. That mixture 
ratio was something that was told to us was very important, yet 
here we are this year looking at a different configuration.
    For my friends from the Air Force, can you explain how that 
has changed?
    General Nahom. And, sir, I will start off that, then I will 
turn it over to General Holmes for more of the specifics on the 
fighter. I want to get through some of the programmatics.
    As we balanced the President's budget this year, we 
definitely had to take some--we definitely had to make some 
tough choices in the endgame. We were very cognizant not to 
touch the F-35 investment. We wanted to make sure we kept that 
steady across the FYDP. On the F-15EX----
    Mr. Norcross. At the requested level or the unfunded level 
when you say that?
    General Nahom. I would say right now at the requested 
level, but we know--at our requested level we kept that. We 
kept that steady across the FYDP. We wanted to make sure we had 
no reduction in our ability to bring on fifth generation into 
the Air Force.
    The F-15EX is very important because we have added capacity 
that it brings. It allows us to retire the F-15Cs in the 
timeline we think we need to retire them, by 2026. We did 
reduce from 18 down to 12 in this President's budget, but we 
are going keep the total number in the initial buy of the F-
15EX steady across the FYDP, and our intention is to replace 
the F-15Cs on time as well.
    As we were balancing the budget at the very end, the 
choices, the problem is, as we modernize as an Air Force, and 
there are some things we are doing day in and day out right now 
with the combatant commands, and there is certain friction as 
we modernize that we have to make sure that we are still 
attending to the current day fight.
    And that is where a lot of the balancing was at the end, to 
make sure we weren't retiring things too quickly, some of the 
older technologies, while we brought on the new technologies. 
And it offered some challenges as we close the books on the 
2021 PB [President's budget].
    Mr. Norcross. General Holmes.
    General Holmes. Mr. Chairman, General Nahom and his team 
worked with the Secretary and the chief to balance the Air 
Force's submission and to balance a whole lot of activities and 
all the things that you expect the Air Force to do.
    From the Air Combat Command perspective, you know, we 
continue to believe that we need 72 fighter aircraft a year to 
keep up with the age of our airplanes and to keep them 
relevant. What you will hear me say over and over is that I am 
grateful for the additional money that we have been able to use 
to get ready over the last 2 or 3 years.
    Starting with that 2018 budget, we have had increased 
funding, which has helped us make all our fighter force ready. 
And we are grateful for the additional aircraft that the 
committee provided last year on top of our request. But what I 
don't want to do is go backwards. I don't want to go back to 
have aircraft and crews that aren't fully ready for the fight.
    And so, as we balance, I don't want to buy more airplanes 
at the expense of the weapons and the things they need to be 
effective or the training environment that they need to train 
in that represents a Chinese or a Russian threat. I will always 
be arguing within the process that whatever force I have, it 
needs to be ready so that the aircrew members we send into 
harm's way are ready to do their job on behalf of the joint 
force. And so that is part of the tradeoff that we make when we 
put the budget together. Thank you.
    Mr. Norcross. But the configuration, and maybe Dr. Roper, 
from the 15 assisting the 35s, there was a mix that you brought 
to us, a ratio. But here we are increasing the 35, and you are 
reducing the 15.
    So it is not a budget consideration. It is a choice that 
you are making because the dollar for dollar, the fact, if 
anything, the F-35 sustainment rate, as General Goldfein talked 
about, is way too high. So talk to that.
    General Holmes. I would take a hack at that. You know, when 
we made the decision several years ago in 2008 or 2009 to 
cancel the F-22, we based that on accelerating the F-35 
program. And if we had executed that program, the Air Force 
would have a thousand F-35s right now, which would put us at 
about a 50-50 ratio of fourth- and fifth-gen fighters.
    We just delivered the 500th F-35 to all customers 
worldwide, not to the Air Force. And so we are behind on 
reaching that ratio. Right now, we have 3 F-35 squadrons that 
are operational in the Air Force and 5 F-22 squadrons, 10 out 
of 55 or so. So we are at about a 20 percent fifth-to-fourth 
ratio. The study that OSD CAPE did and the different works have 
said something like a 50-50 ratio. We think maybe 60-40. So we 
think we are buying toward that ratio that we need in the 2,000 
or so fighters that we have, and we have to keep buying F-35s 
to get to that ratio.
    Mr. Norcross. So, just to follow up, Pratt and Whitney has 
a protest in on the engine for the F-15. Can you bring us up to 
speed with that?
    Secretary Roper. Yes, sir. So there is a protest by Pratt 
and Whitney on the engine. So like we do with any protest, we 
will work with the GAO [Government Accountability Office] to 
resolve the----
    Mr. Norcross. But are you preparing? If the protest is 
upheld, it is going to drive that timeline.
    Secretary Roper. Yes, sir. So just, you know, for context, 
there is--so when the Saudis and Qataris started modernizing 
the F-15, they have put over $5 billion into modernization, 
which we want to leverage, especially given how much it costs 
us to operate the F-15Cs and Ds. So it is just a good business 
deal to retire the Cs and Ds, trade up to the EX.
    Well, part of those modernizations was integrating a new 
engine by GE on, so the F110. The F100 is on the current F-15E. 
And so our acquisition strategy was to be able to buy off of 
the line that the Qataris and the Saudis have stood up. If we 
have to do an engine competition, it will add time, 2 to 3 
years.
    And so we will work with the GAO. We will obviously follow 
their recommendations. But until we have had time to sit down 
with them, I won't have more that I can say.
    Mr. Norcross. Right. Just quickly, and this is for all our 
witnesses. Coronavirus. We see what it is doing to the Italians 
right now. Turkey, although not the virus problem, threw some 
additional weight on us. What contingency plans, because I can 
imagine after being down in Texas through the F-35 plant that, 
if it hits there, it is going to have a severe effect on that 
production.
    If you could just briefly from each of the services, how 
are you planning for this?
    General Holmes. Well, sir, I will go. I attended a meeting 
today with our chief of staff and Secretary after a meeting 
yesterday with the Secretary of Defense and the chairman to 
talk about an overall OSD approach to it.
    And we have done the things you would expect us to do. We 
have gone through the checklists that we have for a potential 
pandemic, not that we are to pandemic status, but we have 
planned ahead to look at how it affects us. Right now, we are 
concerned with the movement of our people back and forth to 
overseas assignments and the temporary duty that we go back and 
forth to do exercises, we are working through that policy.
    In our industry base, those are certainly challenges that 
are a larger challenge, I think an American challenge, a 
national challenge beyond our scope to be able to handle. But 
we are working to try to safeguard our military members and the 
communities where they live, and then also safeguard the 
readiness that we fought hard to gain through this process by 
thinking ahead and trying to prepare for the next steps.
    Secretary Geurts. Yes, sir. I think for Navy and Marine 
Corps, the same, all the services working together there. And 
then we are watching supply chains. Where do we have parts 
either being repaired or produced overseas. Do we understand 
supply chains. And for those foreign military sales programs 
where we have folks going overseas, watching that closely and 
controlling the movements and taking very measured response, 
sir.
    Mr. Norcross. Thank you. Are you in the same boat, no pun 
intended, for you Army guys?
    Secretary Jette. Close to the same boat, sir, although we 
are really trying to not do much cruise ship work together. It 
seems that is not a good thing for coronavirus. We surveyed all 
the PMs [project managers] and through the POs [program 
offices], to try and determine which programs are at risk in 
which areas.
    We have both some risk in the supply chain issues that we 
have got to take a look at, but we have also got to take a look 
at the delivery of systems because I have got to move people 
there, deliver the systems, train people. And for the Army in 
particular, it is a people relationship issue. So we do have an 
extensive effort right now, trying to make sure we have a good 
handle on that. The Army senior leaders are working very 
closely on trying to make sure that we have got all the things 
we can in place for our military, military families, 
particularly overseas.
    And we do have two benefits that we kind of think we 
contribute to the Nation. One of them is Joint Chemical, 
Biological, Radiological, Nuclear Program Office, where we are 
working with the different health agencies within the 
government on transferring capabilities that we have and trying 
to look at biodefense and our bio labs up at in NATICK--or not 
in NATICK, in Maryland, to see how we can bring some of the 
technologies that we know there to bear on these problems. We 
think, within a month, we will have a fieldable local test you 
can quickly do and determine if someone has the effect.
    Mr. Norcross. Thank you.
    And I apologize, Mrs. Hartzler, for running over.
    Mrs. Hartzler. That is all right, very important questions 
for sure.
    Dr. Jette, to continue with you, the Army has requested to 
procure 36 UH-60M helicopters for fiscal year 2021, and that is 
significantly less than 73 requested for in fiscal year 2020. 
And I understand that, out of the 36, 13 are for the Active 
Duty, 23 are for the Army National Guard. So why is the number 
requested significantly lower than the number last year, and 
how will this impact units that are in the pipeline to receive 
UH-60M helicopters?
    Secretary Jette. Yes, ma'am. So what we did was, in our 
procurement last year, our specific effort is to try and retire 
the alpha models. So we want to get the alpha models out of the 
National Guard first, and we want to do that by 2022, and then 
we want to get the alpha models out of the Active forces by 
2024. So, to do that, we plussed up on our buy last year, and 
we are working to buy out more this year.
    So you are right. We put 66 of the buys last year for the M 
models into the National Guard, and we were planning to put 23 
out of the fiscal year 2021 buys into the National Guard. This 
is all leading to our scheme of getting the alpha models out.
    Mrs. Hartzler. So how is this going to impact those that 
are in the pipeline to receive UH-60M helicopters?
    Secretary Jette. I am----
    Mrs. Hartzler. Is it going to slow down their ability to be 
able to receive the Mike models, as you have cut the number 
that you are going to procure this year of the updated 
versions?
    Secretary Jette. Well, I don't think that--our view of it 
is that we are not trying to slow down. Sort of, we were lower. 
For example, we were 62, 58, popped up to 74, and we are back 
down to 36. And what we just have is affordability of trying to 
keep the Mike model procurements over a period of time that is 
affordable. So our intent is not to stop or slow down. It is to 
get to a level.
    Mrs. Hartzler. So, if a unit was expected and told you were 
going to get a Mike model, say, within 2 years, then they can 
expect they will get it?
    Secretary Jette. Yes, ma'am.
    Mrs. Hartzler. That is good. Okay.
    General Rudder and Admiral Harris, the Marine Corps has 
identified and established a requirement for a modernized 
aviation body armor vest for all HMLA [Marine Light Attack 
Helicopter Squadron] airframes within the Marine Corps.
    In fiscal year 2020, the Marine Corps requested $2.2 
million to purchase 1,000 commercial off-the-shelf units that 
are immediately available. However, the funds provided would 
not even cover half of the aviation body armor vests needed to 
outfit all the airframes, and there is no money requested for 
fiscal year 2021. What is the Marine Corps plan to outfit the 
rest of the airframes with modernized aviation body armor 
vests?
    General Rudder. I think this was the initial buy from a 
request, urgent UNS [universal need statement] request for 
these additional body armors, and we put that in there. We 
think we may have to buy some more, but we will see with the 
deliveries, see if they like them when we put them with our 
forward element. So, if you look at the training commands and 
some of the squadrons that are back, they don't necessarily 
need, you know, outfit for every single airframe. But those 
that go forward, we will have enough to outfit those that are 
actually going into harm's way with these new vests and still 
have some in the rear to be able to train with.
    Mrs. Hartzler. Okay. We will watch that.
    Dr. Roper, during last week's Air Force posture hearing, 
General Goldfein highlighted the benefits and savings of the T-
7 program's digital design and manufacturing techniques as a 
game-changer for bringing down sustainment and modernization 
costs in the long term. And I know this is your baby, your 
initiative that is so exciting.
    So are there lessons learned from the T-7 program that the 
Air Force can apply to drive down costs of other platforms as 
you go forward?
    Secretary Roper. Yes, ma'am. I mean, the technologies that 
let you design and build things differently are the most 
exciting to me. And you know I have worked with you in the past 
on warfighting technologies. I still love those. But we are 
going to have to speed up how we build things and be able to 
work with a broader industry base, or we can be right this year 
and next year in our budgets and still lose to China simply 
because we are not working with the entire innovation base that 
this country has.
    Digital engineering has been used in many industries that 
are commercial. The automotive industry has been fundamentally 
transformed because of it. And T-7, we have seen the first 
crossover in the military systems.
    I think the lesson to be learned is that when you have that 
level of design and your design and assembly are digitally 
rendered--think of it as like a simulator for designing and 
assembling that allows you to de-risk things before you do them 
in the real world. It is actually the next evolution past 
flying before you buy because you can kind of digitally design 
and fly before you decide to do it in the physical world.
    So, ma'am, what it should do is it should transform how we 
do every acquisition. We should get rid of paper. We should 
transition to full digital tools. And in the Air Force, for 
every new program, they have to do this. So for Ground-Based 
Strategic Deterrent, they have to use these digital tools. And 
I think what we will learn is that we can de-risk things 
digitally that we used to have to do in the physical world 
after we built the system.
    Mrs. Hartzler. I know my time is up, but I certainly hope 
100 percent of the services are adopting the same technology.
    Secretary Geurts. Yes, ma'am. And in shipbuilding, nuclear 
shipbuilding, all of our submarines and aircraft carriers are 
100 percent digital design from the start, which also goes all 
the way through sustainment.
    Mrs. Hartzler. That is great. Thank you very much.
    I yield back.
    Mr. Norcross. Mr. Bacon.
    Mr. Bacon. Thank you, Mr. Chair. I have a couple questions 
on electronic warfare. So my first is for Dr. Jette and Mr. 
Geurts. I applaud the efforts made on your rotor-wing aircraft 
and all the emphasis you put on infrared kind of 
countermeasures. We are seeing an increased capability that the 
opposition or our enemy, potential adversaries would have with 
radar-guided missiles for helicopters even at those lowest of 
altitudes.
    Do we have the appropriate priority for countermeasures for 
RF [radio frequency] being put on our new helicopters or 
current ones we use?
    Secretary Jette. Sir, our current helicopters have--we have 
got two new programs that we are working with on the 
helicopters. One of them is LIMWS, Limited Interim Missile 
Warning System, that gives us an ability to detect these 
missiles coming in faster and then use various methods, chaff 
and flares to decoy them away. We have some other things that 
we----
    Mr. Bacon. Is there a jamming pod associated?
    Secretary Jette. We need to talk in a different forum.
    Mr. Bacon. Fair enough. Mr. Geurts.
    Secretary Geurts. Again, across the board, between all of 
our, you know, F-18Gs and all of our next generation pods----
    Mr. Bacon. You could go with the rotor wing.
    Secretary Geurts. But even on the rotor wing, we are 
switching over kind of our decoys and techniques there, taking 
advantage, again, of the rip-off and deploy R&D. So if the Air 
Force or the Army has done something, we will work on getting 
it into our fleet as quickly as possible.
    Mr. Bacon. Typically, for helicopters, we worry about IR 
[infrared] threats. Now the RF, increasingly, that envelope is 
going into the rotor wing.
    Secretary Geurts. Yes, sir.
    Mr. Bacon. Even at 100 feet, right? So it is important we 
have a thought or plan for it.
    For the Air Force side, I wanted to ask--or maybe it would 
be better for the record and come back and talk one-on-one. I 
am concerned about the EC-37 program. We have 5 aircraft out of 
10 purchased to replace the EC-130s. A sixth one is in this 
budget. But now the Gulfstream production line is going to 
stop. We are talking about buying used ones that we don't know 
how many hours they will have, what kind of configurations they 
have been in. And in the meantime, our squadron is going to 
have partial EC-130s, partial EC-37s. It is very hard for crew 
management. I am worried about where we are going with this. 
Can we not buy new aircraft, put them on hold and then modify 
them later in later budgets?
    Secretary Roper. So I will speak to the acquisition, 
certainly open it to my colleagues for the operational impacts. 
But yes, we are working many options to try to accelerate how 
quickly we can deliver the capability.
    We are in discussions, you know, with vendors, and so those 
aren't things that I can share publicly. But yes, we understand 
that having a line shut down means we need to think creatively 
about how we can bring aircraft to bear.
    And, sir, I will take as an action to come by and chat with 
you about what we are thinking.
    Mr. Bacon. Anything else? I just welcome the office time if 
we need to do that.
    I think, from a squadron commander, which I was a two-time 
squadron commander, having a squadron with half 130s, half EC-
137s, it is pretty hard to manage that crew, especially--you 
can do it for a short time, but if we are going to do one 
aircraft a year, I just think it is a risk to that squadron and 
our capability if we need to deploy them.
    Secretary Roper. Yes, sir. We are aware that putting that 
burden on the operational community is not a bill that we want 
to pass. And so, between options to try to extend the line, 
used aircraft, and alternative aircraft, we are pursuing 
options for all three. And I can let you know which ones appear 
to be trending, but I will need to do that in a closed setting, 
sir.
    Mr. Bacon. Thank you.
    One followup with you, Dr. Roper, if I may. Going to our 
ICBM [intercontinental ballistic missile] wings, as you know, 
we are starting to deliver the MH-139A Gray Wolf helicopters. 
And they have to have the capability to go to an ICBM site in 
case there is a force protection issue, so you have a door 
gunner. Typically all right in the summer, but in the winter up 
there, as you know, it is like minus 30. And what I am hearing 
is it is so cold that they can't operate the guns.
    Do we have a plan, whether it is the right gear, you know, 
with warmers and the gloves or the mittens? It seems to me we 
have to have a capability for these door gunners to be 
effective at what they are doing. Do you have any updates or 
any thoughts on how we can help out that community?
    Secretary Roper. Yes, sir. We are working closely with 
Global Strike Command currently. We are aware of the weather 
conditions in Minot. I went up a year ago right before winter 
started, and I was there on one of the warmest days on record. 
So I did not get to experience the full Minot experience. Part 
of doing UH-1 replacement, the Gray Wolf, is having 
capabilities that operators can use and to let them do their 
missions more flexibly.
    So cold weather, a primary challenge that has to be 
overcome. The defenders always tell me to make sure that I say 
publicly when I am testifying before you that they are some of 
the toughest airmen in the Air Force, and I think I agree with 
them.
    So we are working a variety of options, environmental 
options, clothing options, to try to mitigate that risk, sir. 
And that is part of why we are excited to start getting those 
aircraft and start doing testing.
    Mr. Bacon. I will just close by saying I have my ear to the 
ground with that community, and I know they would be pleased to 
hear what the plan is because, at minus 30, it is hard to 
operate a machine gun with an open door. Thank you.
    Mr. Norcross. Thank you. We have roughly 10 minutes, we 
expect. So you are good?
    So let me, the future strike fighter, the F/A-X. So, if we 
go back a few years and we look at what happened when we 
thought we were going to up-ramp the F-35s, we let the F-18s 
slide down. That was a risk we imagined that didn't come to 
fruition, and we had to stand up the F-18 to a different 
number. Yet, here we are getting ready to curtail 36 Super 
Hornets because we are expecting, you know, the F/A-XX to come 
online. Now, we always look to history to kind of teach us in 
the future. What do you see differently here that historically 
trying to get that next generation in the original timeframe 
hasn't been the greatest history that gets delayed? So if you 
could talk to that.
    Admiral Harris. Absolutely. So, in PB-21, we did look at 
the mix of fourth- and fifth-gen aircraft and then started 
funding the next-gen air dominance family of systems. The F/A-
XX is the manned aircraft portion of that.
    We believe in the way we have the program designed--it is 
classified. We are happy to come over and talk to you at the 
classified level about it. But at the UNCLASS [unclassified] 
level here, we are working closely with the Air Force to ensure 
that the systems that we put on that have the TRL [technology 
readiness level] that gives us confidence that we can achieve 
that aircraft on time in the early thirties to replace the F-
18E/F as it reaches the end of its service life.
    Mr. Norcross. What is it that we are not seeing this time? 
Because you made the same--not you. We made that determination 
years ago, and so it cost you a lot more to stand up a line 
that was dwindling. Dr. Roper.
    Secretary Roper. Yes, Chairman. I appreciate you and 
Ranking Member Hartzler taking that classified briefing on 
next-generation air dominance.
    So we are pushing ahead on the Air Force component of the 
program. If you are asking why do we have hopes that things can 
be different, it is exactly what Mrs. Hartzler referenced. It 
is digital engineering tools coming fully into a program, 
allowing us to be more agile.
    So I view it as a must do. It is just as important to get 
the way we build the future systems right as it is to build 
those systems.
    Mr. Norcross. That is the question I wanted. Thank you.
    Mrs. Hartzler.
    Mrs. Hartzler. Sure. My last topic here--and thank you for 
being so patient and covering a lot of important areas. So this 
is about the Future Vertical Lift. Let me start with you, 
General Rugen. Last year, Congress provided you with an 
additional $75 million to help accelerate the Future Long-Range 
Assault Aircraft program.
    Could you update us on how you are using these additional 
funds to accelerate the program?
    General Rugen. Yes, ma'am. Really, we are leveraging fully 
the Joint Multi-Role Tech Demonstrator [JMRTD]. We have two 
demonstrators flying now. And we are taking that demonstrator 
program into a phase where we are looking at the weapon system. 
So that is a higher bar, and, honestly, it is driving down the 
risk of those, you know, making it more of a weapon system.
    It also set the conditions for a 4-year acceleration on the 
program from 2034 first unit equip to 2030. And then it is also 
informing our trades analysis on our requirements, so getting 
requirements that are achievable.
    Secretary Jette. If I can just add.
    Mrs. Hartzler. Sure.
    Secretary Jette. So this is one of the things that 
sometimes isn't understood. So I will just make sure it is 
clear. When we did the JMRTD, you get an aircraft that has the 
fundamental capability to fly to demonstrate some of the major 
components of the system. But this issue of it not being a 
weapon system, for example, it doesn't have--these were never 
designed to be able to withstand rough landings. They weren't 
designed to have the data busses that we need for combat 
operations in them.
    All of these things have to be built out for the aircraft. 
You can either wait until you get through a very formal 
development program, or you can begin funding some of those 
efforts. It is the application of those funds to those type of 
efforts which are actually allowing us to accelerate, because 
now what we know is we are going to begin transitioning this 
from simply a demonstrator to a weapon system. And we are 
pursuing it on both platforms.
    Mrs. Hartzler. Makes sense.
    General Rudder, how is the Marine Corps participating in 
the Future Vertical Lift initiative, and have you requested 
funding in fiscal year 2021 budget request for this effort?
    General Rudder. Yes. You know, our FVL replacement CAPSET 
[capability set] 3, we are tied in with the Army. We have 
actually an officer down in Huntsville participating with all 
their meetings. So the Army is going a lot faster than we are. 
Our replacement for the H-1 doesn't really come into play until 
about 2035, but we are tracking everything that the Army is 
doing and watching that.
    We are also using the limited funds that we put in there. I 
think you added some funds for us last year. We put about $10 
million in for 2021, just to look at operating concepts, 
mission survivability, and really digital operability. Much 
like we are doing with our unmanned systems, we want to make 
sure that we have got, within the industry model we have got 
the digital and operability right. But we are tied in with the 
Army in tracking this very closely as they down-select to their 
next two air vehicles.
    Mrs. Hartzler. Good. It looks like you want to say 
something, and I was going to go back to you anyway just on the 
last question regarding affordability of this platform. There 
have been two studies over the last year analyzing the Future 
Vertical Lift affordability. So can you walk us through the 
results of the studies, explain to us what measures the Army is 
taking to ensure affordability for both the Future Vertical 
Lift as well as the Future Attack Reconnaissance Aircraft?
    General Rugen. Yes, ma'am. Those two studies, one from the 
Congressional Budget Office and then one from CSIS [Center for 
Strategic and International Studies], really analyzed our past 
20 years of historical procurement dollars. And what came out 
was, with two aircraft going forward, we trended towards, from 
2019 to 2050, on the procurement of our new aircraft, the lower 
end of those budgets. So a lean program, a lower end of those 
budgets and not a higher end.
    So we also were cautioned by those two reports to maintain, 
you know, vigilance over our operations and sustainment costs, 
and we are doing that now. So we have five pillars of cost in 
our cost-conscious culture requirements. We are picking it and 
sticking it. We are not going to have the requirements creep 
you have maybe seen from past aviation programs.
    We also have competition. There is robust competition from 
industry to win these aircraft. IP and data rights strategy, we 
are part of a pathfinder program with Dr. Jette on what is 
going to be our IP and data rights strategy. We have also gone 
to school with external experts on past programs that maybe had 
cost overruns. And then the O&S [operation and sustainment] 
cost and technology that, you know, I echo Dr. Roper. We are in 
the digital design environment, and that is going to impact in 
a positive way our ops and sustainment cost.
    Mrs. Hartzler. That is encouraging. Hopefully, you can be 
an example for other application programs. Thank you.
    Mr. Norcross. First of all, I want to thank you all of you 
for coming, all eight of you, and certainly our staff for 
prepping us for all eight.
    Just a quick reminder. Our ISR is April 1st. Mr. Bacon I 
know particularly, so we can do the ABMS and some more 
questions along that line.
    With that, we are adjourned.
    [Whereupon, at 3:34 p.m., the subcommittee was adjourned.]



      
=======================================================================




                            A P P E N D I X

                             March 10, 2020

=======================================================================

      



      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             March 10, 2020

=======================================================================

      
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
      
  



      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             March 10, 2020

=======================================================================

      

                    QUESTION SUBMITTED BY MR. BACON

    Mr. Bacon. In the hearing we heard a lot about the process that the 
USAF is using to pursue ABMS, but we did not hear much about specific 
timelines for capability delivery. Can you provide a specific timeline 
for when GMTI sensors are going to be available through ABMS to meet 
these growing needs and begin replacing legacy GMTI feeds?
    Secretary Roper and General Holmes. The Air Force has completed the 
Advanced Battle Management System (ABMS) Moving Target Indicator (MTI) 
and Battle Management Command and Control (BMC2) Analysis of 
Alternatives (AOA) and released the Final Report to OSD CAPE for 
sufficiency review on 3 February 2020. The ABMS MTI and BMC2 AOA 
describes potential MTI capabilities, including GMTI, which is needed 
for operations in highly contested environments. The DAF will use the 
ABMS MTI and BMC2 AOA to develop plans for future MTI capability 
development which includes timelines and impacts to legacy MTI 
capabilities. The ABMS MTI and BMC2 AOA is scheduled for delivery to 
Congress in June 2020. We can provide a classified briefing with the 
details to Rep Bacon in the proper setting.

                                  <all>
</pre></body></html>
